FDIC Office of Inspector General Press Release: Former Bank Branch Manager Sentenced For Bank Fraud, False Tax Return
United States Department of Justice
United States Attorney's Office
Western District of Missouri
FOR IMMEDIATE RELEASE
July 31, 2014
Former Bank Branch Manager Sentenced For Bank Fraud, False Tax Return
SPRINGFIELD, Mo. â Tammy Dickinson, United States Attorney for the Western District of Missouri, announced today that a former bank branch manager has been sentenced in federal court for stealing more than $316,000 from several elderly customersâ accounts and failing to report the embezzled income on her taxes.
Jennifer A. Gunter, 34, of Republic, Mo., was sentenced by U.S. District Judge Greg Kays on Wednesday, July 30, 2014, to three years and 10 months in federal prison without parole. The court also ordered Gunter to pay a total of $547,897 in restitution.
Gunter pleaded guilty on Sept. 12, 2013, to bank fraud and filing a false tax return. Gunter was the branch manager at the Guaranty Bank at 291 Highway CC in Nixa, Mo., (and earlier at the Guaranty Bank at 1341 W. Battlefield, Springfield, Mo.) from August 2005 until her termination in November 2012.
Gunterâs fraud was detected when she issued and authorized three checks on the bank account of a victim who had died the previous day. Gunter admitted that, from December 2006 until November 2012, she repeatedly accessed the bank accounts of four elderly bank customers. Gunter embezzled a total of $316,598 from those accounts.
Gunter submitted transaction tickets, withdrawal slips, and cashierâs checks on which she forged the names of the account holders in order to withdraw money from the bank accounts. She used the money for personal matters and expenses. Gunter set the customer accounts to âdo not mailâ status in order to keep the customers from receiving their bank statements and detecting the theft from their bank accounts.
Gunter failed to report this embezzled income on her Form 1040, U.S. Individual Income Tax Return. Gunter did not report the additional income of $45,002 for 2009, $70,481 for 2010, $107,119 for 2011, and $35,000 for 2012.  Gunterâs actions resulted in an additional tax due and owing of $7,642 in 2009, $13,305 in 2010, $22,935 in 2011, and $6,258 in 2012.  The total tax loss is $50,140.
This case was prosecuted by Assistant U.S. Attorney Patrick Carney. It was investigated by the U.S. Secret Service, FDIC â Office of Inspector General, IRS-Criminal Investigation and the Christian County, Mo., Sheriffâs Department.
####